TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Parallel Investigations Process
                               Needs Improvement



                                      September 23, 2013

                              Reference Number: 2013-30-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE PARALLEL INVESTIGATIONS                             explore all potential civil and criminal remedies
PROCESS NEEDS IMPROVEMENT                               in these cases.
                                                        IRS procedures require that quarterly

Highlights                                              coordination meetings be held for ongoing
                                                        parallel investigations. However, there is no
                                                        consistent requirement to document these
Final Report issued on                                  meetings. Therefore, there is no assurance that
September 23, 2013                                      the meetings took place and that all required
                                                        attendees were present. When required
Highlights of Reference Number: 2013-30-114             meetings are not held, the civil compliance
to the Internal Revenue Service Office of the           functions may be unaware that CI concluded an
Deputy Commissioner for Services and                    investigation, possibly preventing the
Enforcement.                                            appropriate civil actions from being taken.
IMPACT ON TAXPAYERS                                     In addition, reconciliation of investigation case
                                                        inventories among the various civil compliance
In Calendar Year 2005, the IRS Commissioner             functions and CI could be improved to provide
established a policy that encourages civil              IRS management with the ability to better
enforcement actions in collaboration with               monitor the progress of parallel investigations
criminal investigations when abusive tax                and ensure that the program is effective.
promotions are ongoing and harm to the
Government is significant. If communication and         WHAT TIGTA RECOMMENDED
coordination are not thorough and consistent,
the full range of criminal and civil remedies           TIGTA recommended that the IRS: 1) revise the
available may not always be explored, resulting         memorandum used for the civil compliance
in missed opportunities to 1) seek injunctions to       function notification process to clearly identify
prevent further harm to the Government and              that the criminal investigation being initiated has
2) assess civil penalties for abusive tax               abusive tax preparer/promoter characteristics;
preparer/promoter behavior.                             2) revise procedures to ensure that all quarterly
                                                        coordination meetings are conducted and
WHY TIGTA DID THE AUDIT                                 documented and ensure that all procedures are
                                                        consistent; 3) improve awareness of the purpose
This audit was requested by the IRS’s Small             of parallel investigations through the periodic
Business/Self-Employed Division. The overall            dissemination of information and training; and
objectives of this review were to determine             4) conduct periodic reconciliations of the various
whether parallel investigations are being               investigation inventory systems used to track
conducted in accordance with IRS procedures             parallel investigations.
and guidelines and whether there may be
opportunities to improve the process.                   In their response to the report, IRS officials
                                                        agreed with all four recommendations. The IRS
WHAT TIGTA FOUND                                        plans to revise the memorandum used to notify
Processes for communication and coordination            the civil compliance functions, develop a
of parallel investigations between the applicable       standardized check sheet to document quarterly
IRS’s civil compliance functions and its Criminal       coordination meetings, and update procedures
Investigation (CI) could be improved. The civil         relevant to parallel investigations to ensure
compliance functions are generally following the        consistency across functions. IRS officials also
procedures that require them to communicate             plan to improve awareness by creating a training
with CI their intent to conduct a civil investigation   course on parallel investigations for use by civil
of an abusive tax preparer/promoter. However,           examiners and special agents. Finally, the IRS
CI does not always coordinate with the civil            plans to conduct a monthly reconciliation of the
compliance functions when it becomes aware of           various inventory systems to help ensure that
an abusive tax preparer/promoter. Improved              parallel investigations are properly tracked and
communication would allow the IRS to further            monitored.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2013


 MEMORANDUM FOR OFFICE OF THE DEPUTY COMMISSIONER FOR SERVICES
                AND ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Parallel Investigations Process Needs
                             Improvement (Audit #201230031)

 This report presents the results of our review to determine whether parallel investigations are
 being conducted in accordance with Internal Revenue Service (IRS) procedures and guidelines
 and whether there may be opportunities to improve the process. This audit was requested by the
 Small Business/Self-Employed Division. It was conducted as part of our Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have questions, please contact me or Nancy Nakamura, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                                               The Parallel Investigations Process
                                                      Needs Improvement




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Communication Between Criminal Investigation and
          the Civil Functions Could Be Improved ....................................................... Page 4
                    Recommendation 1:........................................................ Page 7

          Required Quarterly Meetings May Not Have Been Held ............................. Page 7
                    Recommendations 2 and 3: .............................................. Page 11

          Reconciliation of Investigation Case Inventories Could
          Be Improved.................................................................................................. Page 11
                    Recommendation 4:........................................................ Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Glossary of Terms ................................................................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
            The Parallel Investigations Process
                   Needs Improvement




              Abbreviations

CI      Criminal Investigation
IRS     Internal Revenue Service
LB&I    Large Business and International
SB/SE   Small Business/Self-Employed
                                      The Parallel Investigations Process
                                             Needs Improvement




                                          Background

One of the Internal Revenue Service’s (IRS) top priorities is to combat abusive tax avoidance
schemes1 and the individuals who promote them. During the 1990s, the IRS witnessed a
proliferation of abusive tax avoidance schemes. To address the threat those schemes posed to the
integrity of the Federal tax system, in Calendar Year 2001, the IRS and the Department of Justice
formed a joint task force to examine how to successfully use parallel civil and criminal
proceedings to stop abusive tax promotions. The task force report,2 published in Calendar
Year 2003, made several recommendations including:
       Bringing civil injunctions in cases where abusive tax promotion schemes or tax return
        preparation is ongoing and harm to the Government is significant, even when a criminal
        investigation has commenced.
       Civil and criminal compliance functions of the IRS should consider taking appropriate
        action(s) against tax return preparers or scheme promoters. This may be accomplished by
        pursuing solely a criminal investigation, solely a civil investigation, or parallel civil and
        criminal investigations.
       If it is decided that the scheme should be investigated for both civil and criminal actions,
        the IRS should conduct parallel civil and criminal investigations.
       Specific parallel procedures should be developed by the IRS and the Department of
        Justice as guidance for agents and attorneys who are conducting parallel proceedings.
       To enhance the Government’s ability to pursue parallel civil and criminal proceedings,
        training should be provided to inform employees of the policies favoring the use of
        parallel investigations against abusive tax return preparers and scheme promoters.
In response to the task force’s recommendations, in
Calendar Year 2005, the IRS Commissioner
                                                                  Policy Statement 4-26 provides
approved Policy Statement 4-26, which encourages                      guidance on conducting
civil enforcement actions in collaboration with                     simultaneous but separate
criminal investigations when abusive tax                            “parallel investigations” by
promotions are ongoing and harm to the                            the IRS’s Criminal Investigation
Government is significant. The policy statement                     and the applicable IRS civil
                                                                        compliance function.
provides guidance on conducting simultaneous but


1
 See Appendix IV for a glossary of terms.
2
 IRS, Using Parallel Civil and Criminal Proceedings to Stop Abusive Tax Schemes – A Report Prepared by an
IRS/Department of Justice Task Force (July 30, 2003).
                                                                                                      Page 1
                                  The Parallel Investigations Process
                                         Needs Improvement



separate “parallel investigations” by the IRS’s Criminal Investigation (CI) and the applicable IRS
civil compliance functions (hereafter referred to as “civil functions”) working authorized abusive
tax promoter and preparer investigations. The goal of a parallel investigation is to achieve
maximum compliance by effectively balancing criminal and civil enforcement actions to stop the
promotion of abusive tax avoidance schemes. Policy Statement 4-26 also provides guidance to
identify the best alternative enforcement actions from a range of civil and criminal sanctions
available, prevent additional tax revenue loss, and encourage voluntary compliance.
The IRS has various civil remedies such as penalties and injunctions at its disposal to combat
abuses of the tax laws. The Internal Revenue Code allows the IRS to bring civil action in district
court against abusive tax scheme promoters and tax return preparers to prevent them from further
engaging in illegal actions.
The Internal Revenue Code authorizes the Federal Government to take specific action against a
paid tax return preparer who engages in certain practices, such as participating in any fraudulent
or deceptive conduct that substantially interferes with tax law administration. If the Government
establishes that the preparer’s misconduct has been continual or repeated, the court can
permanently enjoin the person from further acting as a tax return preparer.
The IRS also uses criminal investigations to combat abusive tax promotions and abusive tax
return preparers. In parallel investigations, CI focuses on identifying and investigating tax
scheme promoters as well as those who play a substantial or integral role in facilitating, aiding,
assisting, or furthering the abusive tax scheme. Furthermore, CI has implemented efforts to
foster compliance by identifying, investigating, and prosecuting abusive tax return preparers.

The IRS civil functions involved in parallel investigations
The Small Business/Self-Employed (SB/SE) Division and the Large Business and International
(LB&I) Division are the IRS’s two primary civil functions that participate with CI in conducting
parallel investigations of abusive tax preparers/promoters. Both divisions investigate abusive tax
preparers/promoters and seek civil penalties and injunctions when necessary.
      Lead Development Center: The SB/SE Division established the Lead Development
       Center to centralize receipt and development of abusive tax preparer/promoter leads,
       conduct research, and authorize the initiation of abusive tax preparer/promoter
       investigations in coordination with the IRS’s Office of the Chief Counsel, CI, and other
       operating divisions.
      Office of Tax Shelter Analysis: The LB&I Division Office of Tax Shelter Analysis
       serves as a centralized collection point for all its leads involving abusive tax shelters and
       other reportable transactions, while its Technical Tax Shelter Promoter Committee is
       responsible for authorizing the LB&I Division’s civil investigations. The LB&I Division
       Financial Services Industry function has oversight of the Technical Tax Shelter Promoter
       program.

                                                                                             Page 2
                                  The Parallel Investigations Process
                                         Needs Improvement



In December 2009, the SB/SE Division created the Parallel Resolution Group to
discuss parallel investigations with the other stakeholders
The Parallel Resolution Group originally included stakeholders from the Lead Development
Center, SB/SE Division Counsel, Criminal Tax Counsel, CI, and the Department of Justice. In
December 2012, representatives from the LB&I Division were invited to join the group. These
stakeholders now meet quarterly with the overall objective of discussing strategy and future
actions related to parallel investigations. Among the topics discussed are:
      Awareness of the parallel process among civil examiners and CI special agents.
      Guidelines to determine when it is appropriate to proceed with civil and criminal parallel
       investigations.
      Improvements in the process which ensures that lines of communication remain open
       throughout the life cycle of a parallel investigation.
In addition, meeting participants use this opportunity to update each other on events occurring in
their respective divisions and to discuss any trends identified.
This review was performed with information obtained from CI’s National Headquarters Office in
Washington, D.C., the SB/SE Division Lead Development Center, and the LB&I Division during
the period September 2012 through June 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                                           The Parallel Investigations Process
                                                  Needs Improvement




                                         Results of Review

Communication Between Criminal Investigation and the Civil
Functions Could Be Improved
The civil functions are generally following the requirement to notify CI of all proposed civil
abusive tax preparer/promoter investigations. Due to the sensitive nature of criminal
                                            investigations, the IRS has established formal
   Deconfliction reduces the risk of        procedures designed to minimize the risks that
   conflict in investigations.              simultaneous civil and criminal processes might pose
   The IRS’s civil functions are required   to the criminal case. IRS guidelines3 require that CI
   to send a memorandum to CI               be notified of all proposed abusive tax preparer and
   advising it of their intent to authorize promoter investigations prior to either the
   a civil investigation.                   SB/SE Division or the LB&I Division authorizing a
   CI determines if there is:               civil investigation. The civil function sends a
   1) No CI Activity.                       memorandum to CI of a proposed abusive tax
   2) CI Activity – No Conflict.            preparer or promoter investigation (known as a
   3) CI Activity – Conflict.               deconfliction memorandum), and CI responds in
   CI also indicates whether a civil        writing by indicating whether the commencement of a
   investigation will conflict with the     civil investigation would likely conflict with a
   criminal investigation.                  criminal investigation. This process is known as
                                            “deconfliction.”
A review of a judgmental sample4 of 31 parallel investigations closed by CI during Fiscal
Years 2010 through 2012 showed that the civil functions generally deconflicted with CI as
required. However, of the 31 closed cases reviewed, we were unable to locate deconfliction
memorandums for four (13 percent) cases. For these four cases:
          Three were initiated by the SB/SE Division. We found evidence of deconfliction for
           these cases in the SB/SE Division’s investigation inventory system but could not locate a
           memorandum.
          One was initiated by the LB&I Division. Its investigation inventory system does not
           include a field to annotate deconfliction. We requested that LB&I Division officials
           provide documentation that a deconfliction occurred. They attempted to locate the



3
    Internal Revenue Manual 9.5.1.5.2 (Sep. 27, 2011).
4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 4
                                         The Parallel Investigations Process
                                                Needs Improvement



         documentation, but were unable to do so. **************1*********
         *******************1***********************.

CI does not always coordinate with the civil functions when it first becomes
aware of a potential abusive tax preparer or promoter
While the civil functions generally followed the process to deconflict with CI, there were
instances where the civil functions were not aware of ongoing criminal investigations that may
have benefited from the parallel investigation process. Results of comparing civil and criminal
investigation inventories showed the following situations that could have resulted in missed
opportunities to seek injunctions or civil penalties.
        Analysis of a list of 2,342 nongrand jury CI investigations with ongoing abusive tax
         preparer/promoter characteristics active in Fiscal Year 2012 showed instances where the
         civil functions were not always aware that CI was conducting abusive tax preparer/
         promoter investigations. Of the 2,342 CI investigations, 1,585 (68 percent) had no
         corresponding case in the SB/SE Division’s investigation inventory system, indicating
         that there was no referral from CI or ongoing civil investigation or lead.5
        Analysis of a judgmental sample of 75 adjudicated abusive tax return preparer cases
         publicized by CI on the IRS.gov public website for Fiscal Year 2012 showed that
         39 (52 percent) cases were not on the civil functions’ investigation inventory systems.
         We provided these names and case descriptions to the respective civil function officials
         to inquire about the injunction or civil penalty potential had they been notified of the
         abusive preparer. They responded that of the 39 cases, nine had injunction potential
         while 22 could have been potentially enjoined as part of a plea agreement. Although not
         all of the individuals identified in our analysis would necessarily warrant a full civil
         investigation, there may have been missed opportunities for exploring possible civil
         actions.
The pursuit of an injunction is time sensitive
Pursuing civil injunctions has multiple benefits for the Government. Generally, civil litigation:
        Proceeds more quickly than criminal investigations and prosecutions. Civil litigation can
         stop the abusive tax preparer/promoter sooner with fewer Government resources
         expended.
        Presents the opportunity to obtain a consent injunction during the plea agreement phase
         of a trial. For example, Department of Justice guidance encourages prosecutors to
         include a provision in the plea agreement by which the defendant agrees to be


5
  We limited the analysis to the SB/SE Division’s investigation lead list because the majority of parallel
investigations occur in that division.
                                                                                                             Page 5
                                  The Parallel Investigations Process
                                         Needs Improvement



       permanently enjoined from preparing or filing Federal tax returns on behalf of third
       parties.
      Allows the Government to publicize its position on, and create awareness of, a particular
       abusive tax preparer/promoter or information about an abusive scheme.
      Facilitates the opening or advancement of a criminal investigation using information
       gathered during the injunction investigation.
An SB/SE Division official stressed the importance of CI notifying the appropriate civil function
at the earliest possible opportunity. Currently, the decision to coordinate with the civil functions
when CI first becomes aware of an abusive tax preparer/promoter is at the discretion of CI. Not
coordinating with the civil functions could result in missed opportunities to seek injunctions to
prevent further harm to the Government or assess civil penalties for abusive tax
preparer/promoter behavior.

Potential exists for criminal investigations to be compromised if CI does not
follow notification procedures
Analysis of the sample of the 31 parallel investigations’ deconfliction memorandums showed
three instances where CI had originally responded to the civil function that there was “no CI
activity” on these tax preparers/promoters. However, CI subsequently opened criminal
investigations on these individuals. Guidance states that if CI decides to conduct a criminal
investigation after the civil investigation has been authorized, CI is responsible for coordinating
with the civil function and organizing the initial coordination meeting.
In these three instances, CI did not advise the Lead Development Center when it initiated the
criminal investigation. Additionally, the CI special agents did not conduct the required
coordination meetings with the appropriate civil function. **************1*********
************************1*****************************.
Procedures require that when any tax-related investigation is opened, the special agent is to issue
a notification memorandum to the SB/SE Division Technical Services unit to inform the civil
function of the criminal investigation and request that any ongoing civil examination activity be
suspended. The Technical Services unit determines whether it is an SB/SE or LB&I Division
case and forwards the notification to the appropriate division.
However, civil function officials stated that these notifications often do not get routed
appropriately. Although the notification memorandum was originally designed for traditional
individual tax evasion investigations, such as individual income tax evasion where civil activity
should cease while CI conducts its investigation, civil investigations that involve abusive tax
preparers/promoters could continue in parallel while CI conducts its criminal investigation.
The notifications may not be forwarded to the proper civil function contacts because there is no
identifying information in it to alert the Technical Services unit that the investigation is an

                                                                                             Page 6
                                         The Parallel Investigations Process
                                                Needs Improvement



abusive tax preparer/promoter and that it should be forwarded to the Lead Development Center
or Office of Tax Shelter Analysis for the evaluation of civil penalty or injunction potential. Civil
function officials stated that it would be beneficial if CI would notify them when it found
instances of abusive tax preparers/promoters. This would facilitate communication and allow
both the civil functions and CI to determine the best approach in stopping the abusive actions and
curtailing further harm to the Government.
In addition, timely notification would provide civil examiners with opportunities to begin
casework against abusive tax preparers/promoters so that, if appropriate, they can seek an initial
injunction and be prepared to enjoin taxpayers with consent injunctions by the time any plea
bargaining begins. By failing to notify the appropriate civil functions, CI risks jeopardizing its
criminal investigations and the civil functions miss opportunities to permanently enjoin abusive
tax preparers and promoters, if warranted.

Recommendation
The Chief, CI, and the Commissioners, LB&I and SB/SE Divisions, should coordinate efforts to:

Recommendation 1: Revise the memorandum used for the civil function notification process
to clearly identify that the criminal investigation being initiated has abusive tax
preparer/promoter characteristics and that the memorandum is to be forwarded to the Lead
Development Center or the Office of Tax Shelter Analysis for consideration of civil actions.
           Management’s Response: The IRS agreed with this recommendation. Currently,
           there are procedures in place that require CI to notify the civil functions of all tax-related
           investigations including investigations against abusive tax preparers and promoters. CI is
           revising the notification memorandum to include: 1) specific notification to the SB/SE
           Division Lead Development Center or the LB&I Division Office of Tax Shelter Analysis,
           as appropriate, of the existence of a CI promoter/preparer investigation; 2) a list of the
           statutory violations that relate to abusive promoter/preparer investigations; and
           3) a checkbox to indicate whether CI has determined that the investigation has potential
           to be worked as a parallel investigation with a civil function.

Required Quarterly Meetings May Not Have Been Held
Although guidelines require6 that quarterly coordination meetings be held and include the civil
examiner, civil group/team manager, Area Counsel, CI special agent, CI supervisory special
agent, and Criminal Tax Counsel, we could not verify that the meetings took place and that all
required attendees were present. Guidance on documenting these meetings is inconsistent.
Additionally, CI and the LB&I Division’s investigation inventory systems do not track these

6
    Internal Revenue Manual 4.32.2.6.4 (June 8, 2012) and Internal Revenue Manual 9.5.1.5.4 (Sept. 27, 2011).
                                                                                                            Page 7
                                        The Parallel Investigations Process
                                               Needs Improvement



quarterly meetings. The SB/SE Division’s investigation inventory system is only capable of
tracking the most recent reported quarterly meeting date.
We found evidence of 71 (22 percent) required meetings documented in meeting minutes,
e-mails about coordination meetings, and examiner activity logs for our sample of 31 parallel
investigations closed by CI during Fiscal Years 2010 through 2012. Of the 71 meetings, 49 were
substantiated by written meeting minutes, 17 were noted in examiner activity logs, and five were
identified in e-mail exchanges. However, approximately 319 quarterly coordination meetings7
should have been held for the 31 parallel investigations.
To determine their understanding of the quarterly meeting requirements, we interviewed
21 special agents, civil examiners, and their managers, many of whom were involved in the
investigations in our sample. IRS personnel stated that there were various reasons that
conducting quarterly coordination meetings was not required or documenting these meetings was
not advisable. For example:
        Frequent informal communication between civil examiners and special agents during the
         investigation eliminated the need for formal quarterly coordination meetings. While
         frequent contact between the civil examiner and special agent may have occurred, we
         could not determine if all participants required by the procedures were involved in or
         were aware of the discussions or decisions that took place.
        Some special agents were reluctant to document what was discussed during the meetings
         because of concerns that meeting notes would be an additional burden in ensuring that all
         available documents are turned over to the defense when the cases go through the
         discovery phase. Nevertheless, appropriate documentation that a meeting was held along
         with a list of attendees should be maintained.
        Some special agents believe that cases classified as “grand jury” preclude the special
         agents and civil examiners from conducting coordination meetings. However, a grand
         jury investigation does not prohibit a civil investigation. Federal Rule of Criminal
         Procedure 6(e) limits the use of grand jury materials to the enforcement of criminal law.
         Special agents cannot share information presented or that might be presented to a grand
         jury, but this should not prevent a quarterly coordination meeting to share information
         that could be used in a civil examination.
        Participants in parallel investigations often cited the postponement of the civil case as
         negating the need to conduct coordination meetings. Generally, the resolution of a civil
         case occurs more quickly than the resolution of a criminal case. Should a civil examiner
         determine a civil penalty is warranted, CI or the Department of Justice often requests that

7
  The estimate of 319 is based on the duration of each parallel investigation in days divided by 90 days (which
represents a quarter) to determine the number of quarterly meetings required for our sample of 31 parallel
investigations.
                                                                                                             Page 8
                                  The Parallel Investigations Process
                                         Needs Improvement



       the civil examiner postpone assessing the penalty until the criminal case is completed.
       However, quarterly coordination meetings should continue until the civil proceedings are
       complete.
      Some special agents, especially those who have never been involved in a parallel
       investigation, were confused about what constituted a parallel investigation or were
       unfamiliar with the parallel investigation process. CI officials stated that most special
       agents never work a parallel investigation during their career, and that those who do may
       work only one or two. Some civil examiners commented that special agents sometimes
       view their role in parallel investigations as cooperating civil examiners who are to
       provide technical tax assistance to the criminal case, which would be a civil examiner’s
       role in a joint investigation. These civil examiners further explained that typical CI
       actions on cases not involving an abusive tax promoter/preparer are to stop or suspend
       indefinitely civil investigation activity pending a criminal resolution, which is what some
       special agents instinctively try to do during approved parallel investigations.

Training and guidance are not consistent
The assumptions made for not conducting required coordination meetings are due to a lack of
awareness of the parallel investigation procedures and conflicting guidance in the Internal
Revenue Manual. Proper awareness and training that informs employees of the policies favoring
the use of parallel investigations would improve the Government’s ability to pursue parallel civil
and criminal proceedings. When asked about training related to parallel investigations, IRS
officials stated the following:
      CI: Other than the CI section of the Internal Revenue Manual, no additional guidance or
       specific training is provided on how to coordinate and conduct a parallel investigation.
      LB&I Division: Training was provided to LB&I Division examiners several years ago,
       but no significant training has been provided recently.
      SB/SE Division: Initial training that includes a section on parallel investigations is
       provided to new civil examiners. Parallel investigation training workshops, which
       include review of the relevant Internal Revenue Manual sections and Department of
       Justice policies, are provided to civil examination groups when requested. Further, the
       SB/SE Division has planned additional training centering on advanced promoter
       investigation techniques to be given by the end of Calendar Year 2013.
In addition, the Internal Revenue Manual is not clear on who should attend the meetings and at
what point in the investigation the meetings are no longer required as well as documentation
requirements. For example:




                                                                                           Page 9
                                  The Parallel Investigations Process
                                         Needs Improvement



      Internal Revenue Manual 4.32.2.6.4 (Civil) states:
       Civil and criminal examiners must regularly communicate regarding their
       investigative efforts, but CI should not direct civil actions. Investigation status
       meetings are required to be held every quarter until the civil proceedings are
       complete.
      An additional SB/SE Division civil function guideline for the coordination of parallel
       investigations states:
       Coordination between civil and criminal is crucial. The examiner, special agent,
       and IRS attorneys should advise each other of their respective actions during the
       required quarterly six-way conferences. These conferences continue until the
       civil or criminal investigation is closed. Examiners must document the results of
       these conferences, including any agreements reached concerning examinations or
       interviews of specific participants.
      Internal Revenue Manual 9.5.1.5.4 (CI) states:
       Civil examiners, special agents and their respective Area Counsels must
       continually coordinate their efforts. Investigation status meetings are required to
       be held, at a minimum, every quarter until the civil proceedings are complete or
       the civil investigation is placed in fraud suspense.
We reviewed the civil functions’ investigation inventory systems and related case files to
determine whether the civil functions were aware that CI had completed its investigations for
each of the cases in our sample of 31 parallel investigations. Seventeen (55 percent) of the
31 investigations were still in suspended status in the civil function’s Examination Returns
Control System. This suspended status indicates that civil work is not progressing because the
civil examiner was requested to postpone assessing the penalty until the criminal case was
completed.
In six (35 percent) of the 17 civil investigations, civil examiners appeared to have been unaware
that the criminal investigations were complete and therefore did not follow up timely on seeking
civil remedies. As of March 1, 2013, these six civil investigations had been suspended for an
average of 612 days after CI closed its related criminal investigation. *********1******
**************************************1***************************************
***********************1************************
If quarterly meetings had been conducted as required, the maximum time a civil examiner would
not be aware of the closure of a criminal investigation would be no more than about 90 days.
Civil investigations remaining in suspended status after the criminal investigations are closed
indicate that there is little management oversight to ensure that coordination meetings take place,
thereby unnecessarily preventing the appropriate civil procedures from being concluded.


                                                                                             Page 10
                                  The Parallel Investigations Process
                                         Needs Improvement



Recommendations
The Chief, CI, and the Commissioners, LB&I and SB/SE Divisions, should coordinate efforts to:
Recommendation 2: Revise procedures to ensure that all quarterly coordination meetings are
conducted and appropriately documented. Procedures should include: 1) developing a
standardized format that would provide sufficient information for management oversight but
would not compromise any future legal proceedings; and 2) establishing consistent time frames
for conducting periodic coordination meetings or specifying when other types of contact between
CI and the civil functions are sufficient. Once procedures are established, a review of the various
Internal Revenue Manual sections should be completed to ensure that all guidance is consistent.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       continue with the current process in which the civil function prepares the six-way
       meeting memorandum; however, the civil functions and CI will work together to develop
       a standardized check sheet to document quarterly coordination meetings in a manner
       which would not include information that could compromise any legal proceedings. CI
       and the SB/SE and LB&I Divisions will each issue a reminder to the field to conduct
       quarterly meetings. CI and the SB/SE and LB&I Divisions will work together to develop
       time frames for conducting any other necessary coordination meetings between CI and
       the civil functions. The IRS will also ensure that the Internal Revenue Manual sections
       relevant to parallel investigations are consistent across functions.
Recommendation 3: Improve awareness of the purpose of parallel investigations by
providing periodic information or training on the use of and procedures required for parallel
investigations.
       Management’s Response: The IRS agreed with this recommendation. The civil
       functions will discuss the quarterly six-way meeting and associated requirements with
       front-line managers. The Lead Development Center will edit the Promoter Action Plan to
       include a statement about the requirement to conduct quarterly coordination meetings and
       to include links to the Internal Revenue Manual and the Parallel Investigations web
       pages. The Lead Development Center will also continue to include periodic articles on
       various aspects of parallel investigations, e.g., reminders regarding available training and
       resources, discussions of the Promoter Action Plan, and investigation requirements such
       as quarterly six-way meetings. The Lead Development Center and CI will work together
       to create a training course on parallel investigations for use by civil examiners and special
       agents.

Reconciliation of Investigation Case Inventories Could Be Improved
An analysis of 298 parallel investigations identified by CI as being closed during Fiscal
Years 2010 through 2012 showed that 50 (17 percent) were not on the civil functions’

                                                                                            Page 11
                                  The Parallel Investigations Process
                                         Needs Improvement



investigation inventory systems. Reasons for the discrepancy in the inventories may be
attributed to:
      The civil Examination function considers parallel investigations to be SB/SE Division or
       LB&I Division authorized abusive tax preparer/promoter investigations where a criminal
       investigation is also active during the deconfliction process. However, the Collection
       function considers any collection activity occurring while CI is conducting an
       investigation to be a parallel investigation, regardless of whether it involves an abusive
       tax preparer/promoter.
      CI designated some internal fraud referrals and some criminal investigations worked with
       other Federal agencies as parallel investigations, although those did not meet Policy
       Statement 4-26 criteria.
      The civil functions may consider a parallel investigation to be occurring when they are
       conducting an examination on a taxpayer that CI considers an associate of an abusive tax
       preparer/promoter, such as an investor or client. CI may not necessarily consider those to
       be parallel investigations.
While there is no parallel investigation inventory reconciliation process between CI and the
LB&I Division Financial Services Industry function, there is some attempt to reconcile parallel
investigation inventory between CI and the Lead Development Center. The Lead Development
Center’s goal is to provide CI a monthly report of all its open investigations, but the frequency of
the reconciliation process has not been formalized. When CI receives the Lead Development
Center’s report, CI compares the report to its data to determine the status of the criminal
investigation. CI reports this back to the Lead Development Center, but does not ask that the
Center reconcile what CI considers to be a parallel investigation. Without an appropriate method
of tracking parallel investigation cases, IRS management may not be able to identify all parallel
investigations and monitor their progress to ensure that their program is effective and that the
IRS obtains the full range of enforcement options available to the Government.

Recommendation
The Chief, CI, and the Commissioners, LB&I and SB/SE Divisions, should coordinate efforts to:
Recommendation 4: Conduct a periodic, standardized reconciliation of the civil functions’
investigation inventory systems to CI’s investigation inventory system to ensure that all parallel
investigations are correctly designated in the systems and are properly tracked and monitored.
       Management’s Response: The IRS agreed with this recommendation. On a
       monthly basis, the civil functions will provide CI with a list of active promoter and
       preparer investigations. CI will advise that the civil inventory is correctly reflected in
       CI’s inventory system.


                                                                                             Page 12
                                        The Parallel Investigations Process
                                               Needs Improvement



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether parallel investigations are being
conducted in accordance with IRS procedures and guidelines and whether there may be
opportunities to improve the process. To achieve these objectives, we:
I.      Determined whether the IRS’s policies and procedures ensured that parallel
        investigations were effectively used to coordinate criminal and civil actions to stop
        abusive tax avoidance scheme promotions1 and abusive tax return preparers by reviewing
        guidance issued by CI, the applicable civil functions, and IRS Counsel for consistency
        with Policy Statement 4-26, inclusion of relevant/emerging issues, proper coordination
        protocol, and appropriate information sharing procedures upon the commencement of a
        parallel investigation.
        A. Evaluated IRS employees’ interpretation of the use of parallel investigations by
           determining their understanding of the process and the criteria under which such
           investigations are pursued.
             1. Surveyed each of the 25 CI field office special agents in charge.
             2. Interviewed CI’s Global Financial Crimes management; nine judgmentally2
                selected CI supervisory special agents and special agents; 10 judgmentally
                selected civil function group managers and civil examiners; the SB/SE Division
                Lead Development Center and the LB&I Division Office of Tax Shelter Analysis
                and Financial Services Industry function program managers; the SB/SE Division
                Lead Development Center parallel investigation coordinator; officials in the
                SB/SE Division Collection function; officials in SB/SE Division Counsel;
                Criminal Tax Counsel; and officials at the Department of Justice.
        B. Discussed CI’s and the civil functions’ training material used to inform employees of
           policies regarding the use of and procedures for parallel investigations.
        C. Reviewed data from the inventory tracking systems used by CI, the SB/SE Division
           Lead Development Center, and the LB&I Division Office of Tax Shelter Analysis
           and Financial Services Industry function to determine if the systems would enable
           each group to identify and monitor the status or progress of parallel investigations.


1
 See Appendix IV for a glossary of terms.
2
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
Judgmental samples were used throughout because we did not intend to project the results to the entire population.
                                                                                                           Page 13
                                  The Parallel Investigations Process
                                         Needs Improvement



       D. Reviewed meeting minutes from eight Parallel Investigation Working Group
          quarterly meetings held between July 2011 and March 2013 to determine the issues
          and concerns raised by each function.
II.    Determined whether IRS actions ensured that parallel investigations were effectively
       used to coordinate criminal and civil actions to stop abusive scheme promoters and tax
       return preparers.
       A. Reconciled SB/SE Division abusive tax preparer/promoter cases designated as
          parallel with CI cases also designated as parallel to determine whether CI’s and the
          civil functions’ monitoring data on parallel investigations were in agreement.
       B. Selected a judgmental sample of 30 open SB/SE Division cases from a population of
          56 investigations and one closed LB&I Division case from a population of five
          investigations that were designated as “closed parallel” by CI during Fiscal
          Years 2010 through 2012. We analyzed each case to determine whether the
          deconfliction process was followed and whether the required quarterly coordination
          meetings were held.
       C. From the judgmental sample of 30 open SB/SE Division cases selected in Step II.B,
          determined that 17 were in suspended status in the civil functions but were considered
          closed by CI. We discussed these cases with the civil functions to determine whether
          civil action should have resumed.
       D. Analyzed a list of 2,342 nongrand jury criminal investigations with ongoing abusive
          tax preparer/promoter characteristics active in Fiscal Year 2012 provided by CI to
          determine if the civil functions were aware of the cases.
       E. Analyzed all 75 adjudicated abusive tax return preparer cases that were publicized by
          CI on the IRS.gov public website to determine if the civil functions were aware of the
          criminal investigations. We provided the cases to the SB/SE Division Lead
          Development Center for a determination of whether the cases might have had
          injunction or penalty potential had the civil functions been aware of the criminal
          investigations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: IRS policies, procedures, and practices
for determining whether parallel investigations are conducted in accordance with stated policy.
We evaluated these controls by reviewing source materials, interviewing management and


                                                                                          Page 14
                                 The Parallel Investigations Process
                                        Needs Improvement



front-line employees, and reviewing a judgmentally selected sample of 31 parallel investigation
cases during Fiscal Years 2010 through 2012.




                                                                                         Page 15
                               The Parallel Investigations Process
                                      Needs Improvement



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Doris Hynes, Audit Manager
Frank O’Connor, Lead Audit Evaluator
Margaret Filippelli, Senior Auditor
Shalin Basnayake, Auditor




                                                                                    Page 16
                               The Parallel Investigations Process
                                      Needs Improvement



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Chief, Criminal Investigation SE:CI
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Chief, Criminal Investigation SE:CI
Deputy Commissioner (Domestic), Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Chief, Criminal Investigation SE:CI
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 17
                                The Parallel Investigations Process
                                       Needs Improvement



                                                                                  Appendix IV

                            Glossary of Terms

Term                               Definition
Abusive Tax Avoidance Schemes      A specific tax transaction or promotion that reduces tax liability
                                   by taking a tax position that is not supported by tax law or
                                   manipulates the law in a way that is not consistent with the
                                   intent of the law (tax evasion). Abusive tax avoidance schemes
                                   may be applicable to either a large number of taxpayers or a
                                   limited number of taxpayers. These strategies may be
                                   organized and marketed and, if so, are often referred to as an
                                   abusive tax shelter.
Calendar Year                      The 12-consecutive-month period ending on December 31.
Civil Enforcement Action           Civil promoter penalty examinations and injunctions against
                                   promoters of abusive tax avoidance transactions and tax return
                                   preparers.
Civil Examiner                     In the context of this report, an employee of the Examination
                                   function who is trained to work civil investigations of abusive
                                   promoters or preparers. However, the examiner position is also
                                   used for many other types of positions located in various IRS
                                   offices.
Consent Injunction                 An offer by a preparer or promoter whereby he or she
                                   voluntarily agrees to a permanent injunction.
Deconfliction                      The process by which the SB/SE Division Lead Development
                                   Center and the LB&I Division Office of Tax Shelter Analysis
                                   send a memorandum to CI of a proposed abusive tax preparer
                                   or promoter investigation (known as a deconfliction
                                   memorandum), and CI responds in writing by indicating
                                   whether the commencement of a civil investigation would
                                   likely conflict with a criminal investigation.




                                                                                            Page 18
                          The Parallel Investigations Process
                                 Needs Improvement




Term                         Definition
Discovery                    The efforts of a party to a lawsuit and the party’s attorney(s) to
                             obtain information before trial through demands for production
                             of documents, depositions of parties and potential witnesses,
                             written interrogatories (questions and answers written under
                             oath), written requests for admissions of fact, examination of
                             the scene, and the petitions and motions employed to enforce
                             discovery rights.
Enjoin                       To prohibit by a judicial order.
Fiscal Year                  A 12-consecutive-month period ending on the last day of any
                             month. The Federal Government’s fiscal year begins on
                             October 1 and ends on September 30.
Grand Jury                   A grand jury is established to hear testimony to determine
                             whether there is probable cause to believe that the person to be
                             indicted committed the crime in question. The grand jury
                             adheres to the strictest of secrecy, and violators are subject to
                             severe penalties.
Injunction                   A judicial process or order requiring the person(s) to whom it is
                             directed to do a particular act or to refrain from doing a
                             particular act.
Internal Revenue Code        The codified collection of United States laws on income, estate
                             and gift, employment, and excise taxes, plus administrative and
                             procedural provisions.
Internal Revenue Manual      A manual containing the procedures and controls for IRS
                             employees to follow.
Joint Investigation          A method used by CI to combat tax fraud in which a
                             cooperating civil examiner assists the CI special agent on the
                             technical tax aspects of a criminal investigation.
Plea Agreement               Agreements between defendants and prosecutors in which
                             defendants agree to plead guilty to some or all of the charges
                             against them in exchange for concessions from the prosecutors.
Special Agent                A law enforcement employee who investigates potential
                             criminal violations of the tax laws and related financial crimes.
Special Agent in Charge      A law enforcement employee responsible for directing,
                             monitoring, and coordinating the criminal investigation
                             activities within a field office’s area of responsibility.



                                                                                          Page 19
                            The Parallel Investigations Process
                                   Needs Improvement




Term                           Definition
Supervisory Special Agent      A supervisory law enforcement employee who oversees special
                               agents and the overall criminal investigation.




                                                                                  Page 20
            The Parallel Investigations Process
                   Needs Improvement



                                                  Appendix V

Management’s Response to the Draft Report




                                                       Page 21
The Parallel Investigations Process
       Needs Improvement




                                      Page 22
The Parallel Investigations Process
       Needs Improvement




                                      Page 23
The Parallel Investigations Process
       Needs Improvement




                                      Page 24
